                                                                                              zD
                                  Closeout for M93110057

This case was brought to O1G7s,attentionby institution officials. We were informed that the
institution' had completed an inquiry into allegations against a faculty mernbe? in
connection with the conduct of his biohazardous research. We deferred our investigation
until the institution had completed its investigation and adjudication and resolved the
subsequent appeal, grievance, and arbitration. We then initiated our own investigation and
concluded that both the institution and the faculty member failed to act responsibly in the
conduct and oversight of the biohazardous research. However, because of the circumstances
in which these failures occurred, we ultimately concluded that neither the faculty member
nor the institution~committedmisconduct in science.

The attdched investigation report and letters from the National Science Foundation to the
faculty member and institution officials constitute the closeout for this case.

cc: Investigations, IG




                                                           a tinstitution.
                                  e ~ e ~ a r t m e n t q the



                                   Page 1 of 1                               M93-57
                               NATIONAL 5 L l t ~ I ~ c".,..-.
                                                          .
                                   4201 WILSON BOULEVARD
                                  ARLINGTON. VlRGlNlA 22230




 -
  OFFICE OF THE
GENERAL COUNSEL




                                                        July 10,2000




 General Counsel
 Ofice of the ~ e n e r aCounsel
                         l




RE: OIG Case M93110057
Dear ~r.-

        Thank you for your response dated June 27,2000. The agency has reviewed the
Office of the Inspector General's fmal re ort, submissions filed by-niversity
 and submissions by Dr. -While                       there is no finding of rn~swnductin
 science against the Univers~ty,questions remain concerning the effectiveness of the
oversight structure of biohazardous research at                        After careful review
of all the relevant reports and documentation, p m c arly the documentation concerning
the viability and operations of the biosafety committee during the past year, the National
Science Foundation @SF) has decided to take the following remedial actions concerning
the University:

       I.      . U n i v e r s i t y is required to submit supporting documentation with


                                           fi
               any proposal sent to NSF relating to biohazardous research. That
               documentation must include a a statementof whether the research was
               required to be reviewed by              biosafety committee (b) documents
               evidencing the biosafety committee's approval of the proposed research
              agenda and (c) documents evidencing the biosafety committee's rationale
              for its approval for the particular proposal. In this regard, NSF's Division
              of Grants and Agreements wiII monitor internally your compliance with
              this action.



                    Telephone (703)306-1060         FAX (703)306-0149
 Page 2




         2.      The University must reimburse NSF for $5,000 in REU h d s that were
                 not spent as intended. Accordingly, please send a check made'payable to:

                       National Science Foundation
                       Attn: Cashier, Room 295N
                       Division of Administrative Services
                       420 1 Wilson Boulevard
                       Arlington, VA 22230

Thes'e remedial actions will be in effect for 3 years fiom the date ofthis letter. Please.
advise the appropriate University departments and officialseffected by this action.
Thank you for your continued cooperation.
                               NATIONAL S c l t N ~ rt u u l . ~.,~. ..
                                   4201 WILSON BOULEVARD
                                   ARLINGTON. VIRGINIA 22230




  OFFICE OF THE
GENERAL COUNSEL



                                                         July 10,2000




REF: OIG M93110057

Dear Dr.    m
        Thank you for your response dated June 8,2000. The agency has reviewed the
Office of the Inspector General's final report, submissions filed by . U n i v e r s i t y
and your submissions. While we make no finding of misconduct in science against you,
the National Science Foundation (NSF) has decided to take the following remedial
actions to ensure that any NSF-bded biohazardous research is conducted in a safe
manner:

       1.       You are required, in connection with any NSF-supported biohazardous
               research, to submit copies of any representations or promises you have
               made in order to obtain biohazardous materials. Accompanying these
               documents should be a detailed description of your efforts to comply with
               those representations. These materials should be sent to the NSF
               program supporting your research.

               You are required, in connection with any NSF-supported biohazardous
                research, to submit documentation establishing that your biohazardous
               research has obtained any necessary approvals and authorizations
               througheither the University's biosafety committee or any other entity
               whose approval or authorization is required. Further, documentation
               establishing that the hazardous nature of the research has been sufic-
               iently posted and the appropriate individuals notified of the nature of the
               hazards involved in the research is also required.




                   Telephone (703) 306-1060         FAX (703)306-0149
 Page 2




NSF's Division of Grants and Agreements will monitor internally your compliance with
these actions. These remedial actions will be in effect for 3 years form the date of this
letter.

Thank you for your continued cooperation.




   DFM
          I
       Confidential




Office of Inspector General

   Investigation Report

 OIG Case M93 110057
     Part I of IV

      August 2, 1999
     SUMMARY....;.......................................................................................................1
    BACKGROUND  ..................................................................................................... 3
    THE UNIVERSITY'S INQUIRY AND INVESTIGATION ..............................4
       THEINQUIRY.............;.............................................................................................4
       THEHIV INVESTIGATION         .....................................................................................4
                     ...................................................................................... 6
    OIG'S INVESTIGATION
   UNIVERSITY GUIDANCE AM) OVERSIGHT................................................7
      BIOSAFETYCOMMITTEE  FUNCTION AND STRUCTURE      ............................................. 8
                                     ROLE......................................................... 9
      E~PANSIONOF THE BSC 'S OVERSIGHT
      THEBSC AND THE SUBJECT'S            ...................................................... 1 1
                               APPLICATIONS
  IMPLEMENTATION OF THE UNIVERSITY'S EXPOSURE CONTROL
  PLAN .....................................................................................................................
                                                      12
  APPLICATIONS FOR REGISTRATION OF RDNA LABORATORIES ....16
   THE SUBJECT'S   INTERNALFUNDINGREQUESTS ................................................... 17
   TKEURC ............................................................................................................... 17
   TKEBRSG COMMITTEE             ........................................................................................18
   THEREF EXECUTIVE          COMMI~TEE           ....................... ................................................ 19
   SUBCONTRACT    SUPPORT        FOR THE SUBJECT'S               RESEARCH .....................................21
   THE SUBIECT'SEXTERNAL             SUBMISSIONS           .............................................................22
 CONCLUSION REGARDING THE UNIVERSITY'S OVERSIGHT OF
           ....................................................................................................
 BIOSAFETIY.                                                                                                              23
 THE SUBJECT'S RESPONSIBILITIES AND COMMITMENTS ................23
  THESUBJECT'SACQUISITION           AND USEOF BIOHAZARDOUS                         MATERIALS            .............24
  ASSESSMENTOF THE SUBJECT'S            RESPONSIBILITY................................................ 28
  USEOF RESEARCHAND EDUCATION                 FOR UNDERGRADUATES                      (REU) FUNDS....... 29
OIG FINDINGS               ..................................................................................................
                                                                                                                     29
 THEUNIVERSITY  .................................................................................................. 29
 OIG's RECOMMENDEDDISPOSITION                 .................................................................... 31
T m UNIVERSITY'S AND THE SUBJECT'S RESPONSES TO THE
DRAFT REPORT                 ................................................................................................
                                                                                                                    33
         REPORT OF AN INVESTIGATION INTO ALLEGATIONS OF
                     MISCONDUCT IN SCIENCE


                                         SUMMARY

The Office of Inspector General (OIG) at the National Science Foundation (NSF) has
determined that both the subject of this case and his University did not act responsibly in the
conduct and.oversight, respectively, of biohazardous research. Because of the circumstances       -
described in this report, we concluded that neither the subject nor the University committed
misconduct in science. Nonetheless, we have recommended remedial steps that we believe
are necessary to protect public safety and to ensure that the circumstances of this case do not
arise again.

 We concluded that the University did not establish, or operate with, an adequate oversight
 structure for biohazardous research. A1though responsible University officials were aware of
the nature of the subject's research for 3 years, the University did not review it or provide
responsible oveisight. We also concluded that the University's H N Investigation Committee
did not follow up on the University Inquiry Report's findings about the University or attempt
to resolve conflicting information pertinent to the case provided by the subject and
University administrators. We recommend that NSF take the following remedial actions
concerning the University:

1. Send the University a letter describing its expectations for the safe conduct of .
   biohazardous research and the need for effective oversight of potentially dangerous
   research by competent university administrators.
                                                                                                      I
   Require the University to ensure that its review and oversight procedures are consistent
   with those of other institutions. To accomplish this, the University should consult with
   and seek the advice of other institutions' committees or administrations that have
   successful safety processes and review and approval procedures. The University should
   submit a report on its efforts to NSF, and provide a copy to NSFYsOffice of Inspector
  General. The report should include descriptions of its processes for ensuring and
  providing oversight and review. It should describe the qualifications of the
  administrators and committee members appointed to manage these processes. NSF
  should determine whether the report adequately addressed the problems described in this
  report and whether the University's plan and personnel can adequately protect public
  safety.

  Until the report is approved by NSF, NSF should require the University to submit
  documentation with any proposal submitted to NSF that describes whether the project


                                     Page 1
      was required to be reviewed by a safety committee, and, ~f required, shows that the
      project has been approved by that committee. Coples of the documentation and approvals
      (and the rationale for the approvals) are to be submitted to NSF with copies to NSF's
      Office of Inspector General.

      Alternatively, if the University determines that the magnitude of the required remedial
      effort is disproportionate to the funding the University receives for biohazardous
     research, the University may decide that it is not cost effective to comply with the
     requirements specified above to conform with federal expectations for safely conducting
     biohazardous research. If the University decides that it is unable or unwilling to comply     .
     with these requirements, the University should immediately: (a) inform NSF of its
     decision; (b) cease conducting biohazardous research; and (c) no longer apply for further
     federal fknding in this area.

 3. Require the University to reimburse NSF for $5,000 in REU funds that were not spent as
    intended.

 We also concluded that the subject violated the commitments he made in order to obtain
 biohazardous materials. We recommend that NSF take the following actions with regard to
 the subject to ensure that his biohazardous research is conducted in a manner that'protects
 public safety and ensures University oversight:

 1. Send the subject a letter describing NSF's expectations for the safe conduct of
    biohazardous research and the need for coordinating potentially dangerous research with
    university administrators. NSF should explain that, had the subject committed the same
    acts at a university with responsible oversight, it would consider his actions to be
    misconduct in science.

2. Require that, in connection with any NSF-supported activity, the subject submit copies of
   any representations or promises he has made in order to obtain biohazardous materials.
   He should accompany those documents with a written description of his plan for
   complying with them. These materials should be sent to the NSF program supporting the
   subject's research, with copies provided to NSF's Office of Inspector General.
                         i



3. Require as part of the conditions of any NSF-supported activity, that the subject describe,
   in every progress report, the steps he has taken, and will continue to take, to ensure that
   proper notification of his research and its hazard potential is posted, and that his research
   has received the proper oversight. This requirement should be in effect for 3 years from
   the final disposition of this case.




                                        Page 2
                                                     Background

                                 (the subject) is a
                                        (the University), in
                                        for numerous
   transferred from h



   grant, the subject used various human bloodborne pathogens in a multi-user facility located .
   within the ~niversi$'s biology department. Faculty, students, and research technicians used
   the facility. Its access was not generally restricted.

   In February 1993, in connection with an application to an internal funding committee,
  questions were raised within the University as to the propriety of the subject's use of this
  facility and whether his use of it had been properly disclosed to, and reviewed and approved
  by, the University. Questions were also raised as to whether other facility users were                             ,


  exposed to bloodborne pathogens, including Human Immunodeficiency Virus (HIV), without
  their knowledge.

  Since at least 1988, NSF has instructed grantee institutions that they "have full responsibility
  for the conduct of' research conducted with NSF funds.' There are four primary sources of
  guidance for the conduct of recombinant DNA and biohazardous research in connection with
  NSF-supported research: the National Institutes of Health (NIH, Guidelinesfor the Conduct
  of Recombinant DNA Research: the Center for Disease Control (CDC)-NIH Biosafety in
 Microbiological and Biomedical Laboratories: the Occupational Safety and Health
 Administration (OSHA) Occupational Safty and Health standard^,^ and NSF's Grant
 General Conditions (GC-I).' This case is characterized by a lack of awareness of and
 compliance with the guidelines and information in these documents by the University, and
 the subject's disregard for his own commitments to ensure proper oversight of his research.




' NSF Grant ~e*eralConditions (GC-I,  10/88), Art. l(a). The award letter notes the applicability of the GC-I, see
 Tab 28.
 5 1 Fed. Reg. 16,958 (1986). A summary of the relevant Guidelines is provided in Appendix 1 .
'Department of Health and Human Services Publication No. (NIH) 88-8395,2d Ed. (May 1988).
'29 C.F.R.9 19 10 (1992).
 NSF GC-I, 10/88, Art. l(a), Art. 28.


                                                Page 3
                                      The University's Inquiry and Investiyation

       The Inquiry

       In ~ a i c h1993, the University began an inquiry into the subject's use of H I V . ~The August
       1993 Inquiry Report made recommendations with regard to the subject and the University,
      and suggested systemic reforms in the University's research review and approval
       procedure^.^ The University decided that "the initial inquiry was not adequate" and that there
      should be "a full investigation of this matter."* On 25 October 1993, nearly a month after the
      University began its investigation, the inquiry committee submitted an addendum to its report
      citing "new" allegations and "new data"; the committee said that, if it had known about the
      new allegations q d data at the time, it would have recommended "further investigation of
      possible misconduct" by the ~ubject.~

      The HIV Investigation

     On 1 October 1993 the University convenkd the "HN Investigation Committee" "to
     investigate allegations of improper laboratory procedures against" the s~bject.'~~"

     After extended deliberations, the Committee found by a preponderance of the evidence that
     the subject was responsible for:

                1. Failure to obtain proper authorization to acquire andlor use certain
            '      biohazardous materials.     Specifically, these charges refer to an
                   unauthorized signing of a Material Transfer Agreement to obtain [Simian
                   Immunodeficiency Virus (SN)], use of a recombinant DNA HIV plasmid
                   without [Biosafety Committee (BSC)] approval, and failure to report 1993
                   use of polio virus and SIV to the pniversity] Occupational Safety and
                   Health Administration (OSHA) Coordinator;

      16 March 1993 memo from the Associate Vice President for Academic Affairs to the subject. The inquiry was
      initially based on a mistaken belief that the subject's work with H N was supported by NIH. Even though there
      are no significant dfferences in the purpose of inquiries conducted pursuant to the misconduct regulations
     applicable to NIH and NSF.grants, the University terminated the 'WIH inquiry" on 20 April 1993 but "continue[d]
     to pursue the matter" and eventually began an investigation. See Inquiry Report, Tab 1, p. 1.
'    See Tab 1.
     28 October 1993 memorandum from the ~ l c President
                                                       e         to                     resident, University Chapter of
     AAUP. This invest~gationwas conducted pursuant to                                         regulation, see p. i, HIV
     Investigation Report.
     Addendum to
                                                                     Associate Professor of Biological Sciences, on 28
     September 1993.                                                 also submitted a written complaint on 5 November
                                                                        Committee. On 16 November 1993, Dr.
                                                                        for Biochemistry) provided a written
                                                                            I

I'   HIV Investigation Report, p. 1. The Report, including the specific allegations, is at Tab 2.


                                                     Page 4
                                                                                                                ,'
            2. Failure to adhere to guidelines recommended by the Centers for Disease
               Control with regard to experiments carried out with infectious SIV and
               infectious HIV; and

            3. Failure to respond promptly and providing misleading information in




       -
               response to the University's requests for information concerning use of
               infectious HIV. Specifically, this charge refers to lying to the [University
               Biosafety Committee] on February 18, 1993 by denying past use of HIV. l2

  Unlike the Inquiry Report, the HIV Investigation Report placed responsibility for the events
  upon the subject. The University presidentI3 accepted the HIV Investigation report and took
  disciplinary action against the subject, including suspending him without pay and prohibiting
  him from conducting research or applying for any research fbnds.I4

  Remarkably, while the H N Investigation Report discussed systemic problems in the
 University's research oversight procedures that were also raised in the Inquiry Report, it
 recommended no action.'' Although the University took certain steps designed to address the
 deficiencies in its oversight process, it did not take action to address the performance of those
 administrators responsible for those deficiencies. Had these administrators executed their
 responsibilities competently, it is doubtful this case would have arisen-yet one of these
 same administrators still retains responsibility for these proce~ses.'~

 The subject disputed the findings and actions against him, and pursuant to his rights, sought a
 determination by an arbitrator. The arbitrator held a full factual hearing at which both sides
 presented witnesses. The subject's counsel (provided by the American Association of
 University Professors) provided evidence and expert witnesses on biosafety that the counsel
 for the University neither effectively cross-examined nor countered with other witnesses.

    HIV Investi ation Report, p. iii.
I'  Dr.                         current president is ~              rWhen be was Vice.     President, he convened the
   inquiry an lnves        'on committees, received the reports, and recommended the actions that Dr.
   ultimately took against the subject.
l4 See Tab 2 , 9 November 1994 letter from the University president to the subject that lists the sanctions imposed on
   him.
Is In its response to the draft report (Tab 32, p. 5-6), the University said accurately that it had not charged the
  Committee with investigating "the University or the Administration. . . . [TJhe deficiencies of the administration
  with regard to biosafety review were pointed out throughout the Committee's report. It was left to the
  administration and lor the NSF to decide what should be done with this information." It is remarkable that,
  despite the recommendations in its Inquiry Report and the comments in its Investigation Report, the University
  took only limited action to correct systemic administrative lapses. It is clear from its response that, even now,
  several years after these events, it is just beginning to implement critical safeguards. We believe its actions
  reinforce the need for NSF to ensure the University's responsible management of its oversight process.
" The Environmental Health and Safety                                                  June 1998 and is currently the
  Dean of the                                                                         iversity. His replacement was
  chosen from within the Umversity.                                                           retired in January 1997.


                                                 Page 5
      The arbitrator concluded that the evidence did not support the first allegation, and that'the
      subject's action with regard to the second allegation did not constitute professional
      misconduct. He did agree that the subject had not provided prompt and clear information
      about his research. Because he concllided that the University-imposed sanctions were
      "grossly disproportionate to his infraction,"I7 in June 1996 he ordered the University to

            rescind the discipline issued to the [subject]-?.. . and compensate him for pay
            and other benefits lost as a result of his suspension. The University may,
            instead issue [the subject] a written reprimand for his failure to respond
            promptly to requests from the [BSC] and other University employees inquiring
            into his use of infectious HIV."

                                                  OIG9sInvestipation

  AAer the arbitration was completed, OIG reviewed the case. We concluded that the subject's
  conduct could not be understood without first evaluating the University's oversight
 procedures. Because the propriety of the subject's actions turns in part on the adequacy of
 the University's procedures and the actions of University administrators-which the
 University's investigation addressed only .tangentially-we concluded .the University could
 not investigate these matters impartially and we began our own investigation, which included
 interviews at the Uni~ersity'~ and review of relevant documentation.

 We determined that:

 I.        the University did not discharge its research oversight duties in order to ensure that
           procedures for review of proposals and research projects were established,
           disseminated to the appropriate parties, and foll&ved; and .

 2.        the subject did not uphold the commitments he made in order to obtain biohazardous
           materials and to conduct the research, despite committing to do so.

Because the subject's behavior can only be understood in the context of the University's
research oversight structure, we will address that structure in the fwst part of this report. Our
discussion includes instances which, though not directly related to NSF fbnding, demonstrate
that the University's oversight efforts were deficient overall. The second part of this report
describes how the subject, in order to obtain deadly pathogens for his NSF-funded research,


                            - r ---- - -- --
"Id. at v. 90.
'' The statements of 17 individuals interviewed by OIG in this case are arranged a ~ ~ h a b e t i c aatl lTabs
                                                                                                           ~    4-22. All
  October 1996 affidavits referenced in this report are the form of interview notes taken by OIG, which were
  reviewed, revised by the witness as he or she felt was necessary, and adopted under oath by the witness as a m e ,
  accurate, and complete summary of the interview.


                                                   Page 6
     made express commitments to undertake his research in a manner consistent wlth certain
                                                                                                                        '
     guidelines and standards, which he knew was inlpossible in the context of the University's
     deficient oversight structure. Again, we have included discussion of instances not directly
     related to NSF funding that we believe supports our conclusion about the subject's actions.

      The report sets out a summary of the relevant events; examples and quotations illustrating
      these points are in the accompanying appendices and supporting documentation is found in
     the tabs attached to the report. While we ultimately conclude that neither the University's
     nor the subject's conduct in the extant regulatory environment at the University are
     misconduct in science, we recommend certain remedial actions which we believe should be -
     taken to protect public safety.

                                     University Guidance and Oversi~ht

   At the time the subject was submitting the proposals that form the basis for the University's
   investigation of the subject, the University required that the Approval of Application for
  External Grant or Contract form (the "Form") accompany all external proposals as they
  were circulated internally for approval by University officials. The Form required the
  applicant to declare whether the project involved radioactive material*, research on human
  subjects or animals, or recombinant DNA (rDNA). A University administrator was to ensure
  that review and approval were obtained, and that administrator was then to provide a "date of
 approval" on the Form. The Form required signatures from the department chairperson,
 dean, and a grants administrator, "prior to proposal approval by the Director" of the
                                                  who, in this case, was also the University's
 Authorized Organizational Representative (AOR). Only after receiving these approvals was
 the applicant permitted to submit an external appli~ation.~~

Unfortunately, the University publications that explained the oversight process, A Manual for
Externally Funded Projects (the Manual) and the Research Bulletins (the Bulletin) initially
failed to state the University's oversight role clearly, and in later editions mischaracterized it.
Specifically, the publications asserted that the PI bore ultimate responsibility for compliance
with internal and external oversight requirements. This conflicts with NSF's standard grant
conditions described in the GC-I, which place ultimate oversight responsibility on the
instituti~n.~'~~~


*'See Tabs 27 and 28 for examples of these F o m .
2' See Appendix 2.
22 The chairman of the Biological Sciences Department shared a slmilar msconception as recently as May 1997,
  when he asserted that "he is not an expert in biosafety, and ultimate responsibility rests with the PI." Minutes of
 .BSC Meeting, 29 May 1997, p. 1. However, we are encouraged by the University's current Biosafety Manual and
  Mission and the Responsible Conduct of Research, Scholarly Activity and Education, which state that department
  "chairs are responsible for being knowledgeable about government, university, and sponsor regulations pertinent
  to work camed out within their departments and for overseeing adherence to these requirements by faculty, staff
  and students." We believe that our recommendations provide the University an opportunity to demonstrate that its


                                                 Page 7
                                              The Biosafetv Committee

    Biosafety Committee Function and Structure

   The BSC is the oversight committee to which the University assigned rDNA, and
   sbbsequently biosafety, oversight functions. We found a disparity of opinions among
   faculty, BSC members, and University administrators as to what the BSC was, what the
   scope of its responsibilities were, and what procedures applied to biohazardous materials
  research. We concluded that the University did not establish and maintain a cIear and
  effective review and approval structure for either rDNA or biohazardous research.23 Further,
  at the time of our visit 4 years after the actions by the subject that are the focus of this case,
  we found that the BSC was still incapable of performing the duties delegated to it by the
  University in a manner that inspired confidence. Becage of its erratic execution of its
  oversight responsibilities, the University did not provide consistent guidance about its
  oversight requirements.

  Officially, the BSC reviewed only rDNA research until December 1991, when the Vice
 Provost, prompted by a review of the subject's efforts to obtain biohazardous agents, asked
 it, and it began to take steps to, cover biohazardous issues. The Director of ORAD said that,
 in 1986, the BSC had unofficially broadened its authority beyond rDNA to review
 experiments with certain infectious agent~~~-andwhile some faculty began to occasionally
 bring biohazards issues to the BSC, others were unaware of the intended official expansion of
 the BSCysauthority as late as 1993.

 For example, the Director of ORAD, who is responsible for BSC oversight, told us that in his
view the most "charitable" way to view the University's inconsistent approach to the
oversight of hazardous research was to keep in mind that it was a small University, and as it
was growing the regulatory environment was changing. The University's staff did not make
it their job to keep up with the changes, instead relying upon "collegiality" and "trust and
informal discussion." The Director of ORAD pointed out that the "least charitable" way to
interpret the University's conduct was to observe that there were "lots 'of people asleep at the
switch." The Director of ORAD made no effort to defend his inattention.and inaction,
merely observing that he "was there when it came to a head; no one else was willing to take
on this task."''



  administrators can ensure responsible oversight and are encouraged by its statement in its response that it "is
  aware of and striving to comply with the NSF Guidelines described in GC- 1 . . . ." (Tab 32, p. 3)
  Our review of the 1989- 1992 committee rosters showed that the committee composition did not meet Guidelines
  specifications (it did not have a community representation). The community representative from 1993-1996 was a
  University faculty member, an affiliation that the Guidelines identify as a disquallfLing conflict of interests. NIH
  Guidelinesfor the Conduct ofRecombinant DNA Research, 5 1 Fed. Reg. IV-B-2-a (p.16962) (1988).
  See Appendix 3.
* Tab 14, Notes of 15 October 1996 OIG interview with the Director o f ORAD, p. 3.

                                                  Page 8
      During the University's investigation, the Director of ORAD explained that

             the problem we have at [the University] is an inst~tutional history of
             imprecision and informality with regard to compliance with federal
             regulations. . . . At institutions like [this], because its use ofthese materials has
             been relatively low, [it] hasn't been forced to do that but now we are being
             forced both by internal circumstances and external demands for this activity.26

     In the course of our investigation, we encountered an astonishing variety of views of the role
     of the BSC and of oversight resp~nsibilities.~~We have concluded that the University had no                           -
     clear, effective oversight structure for identifying, reviewing, and approving research
     involving biohazardous materials, and its faculty (including BSC members) were unevenly
     aware of the committee's role or any expansion of it beyond rDNA issues.

     Expansion of the BSC's Oversight Role

  In a December 199 1 memo to the Director of ORAD,28the Vice Provost expressed "the need
 for us to develop policies and procedures in the biosafety area." He instructed the Director of
 ORAD and the BSC to develop 'pricedures for handling biological materials with potential
 health risks that will provide the University with assurances that such procedures, when
 executed properly, are the safest possible as recognized by the national or international
 scientific community at large." He specified that "prior review and approval by the BSC"
 should be part of the procedures. He requested a response by 1 March 1992 "so that we may
 have a policy in place by the end of the Winter 1992 ~emester.'"~

 In response, the BSC assigned information collection tasks to various members. The BSC'
met with the subject, whose notes indicate that he explicitly described his work with
biohazardous materials and use of a "P-2 facility."30 At its request, the subject prepared and

26   22 November 1993 testimony of the Director of ORAD to the HW Investigation Committee, pp. 33-34. He also
    said, "I wasn't expecting to spend very much time or be directly involved [in biosafety] and that was explicit with
    conversations that I had between me and [the Vice Provost], that I was not going to be, for example, the RSO at
    this institution. I was leaving a place to get away fiom these responsibilities." Id. at 34. We are troubled by this
    statement, which appears to indicate that even at the time he sought the University position, the Director of ORAD
    was uninterested in actually performing the oversight duties inherent in it.
''  See Appendix 3.
 '' See Tab 23.
29 Id.

'O P-2 is a biosafety level (BSL);. see Appendix 5 for an explanation of BSLs and a description about the BSC's
   confused understanding of BSLs. See Appendix 4 for a fiuther description of the subject's meeting with the BSC,
   and the BSC's abortive attempt to create new biosafety guidelines. The subject claimed in his second response that
   this invitation demonstrated his "concerns and [his] efforts to assist the university to ensure biosafety in
   biohazardous research." (Tab 34, p. 1.) In fact, he knew the university did not substantively respond to the
   circulation of the draft and it made no active effort to provide oversight (Tab 2, pp. 9-1 1, 69.) The subject said
  the University "agreed with the use of room 304D for the HIVISIV research project and made the
  recommendation for [the University] to sign the contract for acquiring biohazardous material warranting BSL2


                                                  Page 9
      distributed to BSC members two successive versions of a biosafety manual. Further, in an 1 8
      February 1992 memo to the faculty, the Director of ORAD requested "information on
      [faculty] use of materials which are either biohazards or have the potential for becoming
      biohazards in teaching or research at" the University.

   However, on the same day the Director of ORAD issued his memo, Nuclear Regulatory
   Commission (NRC) inspectors appeared on campus, and that "afternoon and evening [the
   Science Liaison Officer (SLO)~'and Director of ORAD] began to have to respond to the
  NRC inspector^."^^ Within days, and at the request of the SLO and the Vice Provost, the
  Director of ORAD became the chairman of the BSC, to free up the SLO's time. The
  Director of ORAD said that he took on this responsibility despite knowing that "the radiation
  problem was going to just prevent me from doing anything with regard to biosafety. I was
  going to have no time."33 The Director of ORAD said that the few responses he received
  "were put in a file on my desk and they just weren't, frankly were not paid attention to for
  quite a period of time."M

  Thus, due to the "NRC Crisis," the BSC, which was ineffectual before February 1992,
  effectively ceased operations altogether and did not meet again for a full year. The BSC was
  reconvened to deal with the allegations against the subject, involving acfivities that to a great
  extent occurred during the BSC's self-imposed hiatus.3s

 In September 1993,. the Director of ORAD, as Chair of the BSC, broadly circulated a memo
 to the University faculty and administrators requesting essentially the same information as
 the February 1992 memo. He received 16 responses fiom the faculty. ,We believe that this
 response, when compared to the 6 responses36he had received one year earlier, is indicative

     precautions." However, 10, 17, and 19 December 1991 memos fiom University officials clearly state its
     understanding that he was seeking "transformed but non-infected cells." The University's materials do not show
     that it was aware that he would eventually purchase SIV and HN. See The Subject's Acquisition and Use of
     Biohazardous Materials.
     ~          r        .         b
 ''  22 Novem er 1993 testimony of the Director of ORAD to the HIV Investigation Committee, p. 30.
 '3 Id. at 3 1. This inspection ultimately resulted in a civil financial penalty against the University. (Despite knowing
    he had "no time," he did not appoint a substitute for other oversight duties and no biosafety committee members
    took action to assure coverage of these duties-it is unclear how his replacement can or will distinguish himself
    fiom the past patterns and practices at this University. See Appendix 6 for a description of the 'WRC Crisis" and
    its effect on the ability of the SLO and Director of ORAD to address biosafety issues. The term "NRC Crisis" first
    appeared in the 29 November 1993 Testimony of EH&S Director                                  o the H W Investigation


                         ww
    Committee, p. 60. See also 3 December 1993 Interview of the S                                y the HIV Investigation
   Committee Chairman                     about "radioactivity crisis"); 12 January 1996 HIV Investigation Committee
   response (p. 10) to ques             our 3 November 1995 letter.
    22 November 1993 testimony of the Director of ORAD to the HIV Investigation Committee at 24.
" From 30 June 1990 until May 1, 199 1, there was no Director of ORAD (the incumbent had resigned, and the
   current Director assumed the position on 1 May 1991). Investigation report p. 62-63 and 12 January 1996
   response by HIV Investigation Committee, p. 6 (response 34).
36 The University's response to our 3 November 1995 letter shows that he received at least 6 responses. Thls does
   not include the subject's 4 March 1992 response (which the Director of ORAD claimed he had not received).


                                                 Page 10
     of the faculty's increased awareness of their responsibilities with regard to biosafety-which,
     ironically, apparently came about as a result of the University's handling of the allegations
     against the subject.

     We determined that while some administrators and some BSC members may have considered
     nonrecombinant DNA biohazard issues as part of the BSCYspurview, others, including the
     faculty, were unaware of this as late as 1993 because such an expanded purview for the BSC
     had never been formalized or announced. When we visited the campus in 1996, we found
     little had changed.37

     The BSC and the Subject's Applications

   As far as we are able to determine, for all of the 12 proposals the subject submitted to
   external sponsors (including 5 to NSF) bemeen 1989 and 1993, the subject unequivocally
   indicated on the Form that the projects involved rDNA.38 On all but two of the Forms, an
   ORAD grants administrator typed or wrote b t e s indicating BSC approval for the rDNA
  projects-incomprehensibly, all of the dates for BSC approval of the subject's proposed
  research efforts precede the subject's employment af the Univer~ity.'~ The ORAD grants
  administrator told us she believed this date was the "date the universi& got approval from
  somewhere" but did not know "how the approval is obtained."40 The University explained
  that apparently

          clerks in the grants office made it a practice to list dates on approval forms as
          those when approval had been provided by regulatory agencies. These dates
          were on a clerical reference sheet in the grants office, which is no longer
          a~ailable.~'

 Two of the Foms and their proposals were approved by the AOR (the Director of ORAD)
without any dates for the BSC approval. According to the HIV Investigation Committee, the
Director of ORAD "stated that the signature on the face sheet is his; however, he does not
recall seeing the application, and on July 7, 1992, because of [the "NRC crisis"] he would not
have had time to read itm4* None of these applications or the subsequent research was
reviewed or approved by the BSC.43

"See Appendix    7.
''Neither the subject nor the University was able to locate the approval form for one of the 12 proposals the subject
    submitted in that period
39   The subject also indicated that these projects involved radioactivity. The approval
                                                                                 -.       dates for each of these
    declarations also preceded his employm&t at the University.
 40 Tab 16, 18 October 1996 asdavit of

                                       -zk' e
4 ' 26 March 1996 letter to the University                         Director of ORAD, p. 12.
42 Despite the volume of material exchanged with the University about these matters, it did not respond to our
   question about how these proposals could have been submitted without the required approval dates. See the 3 1
   March 1997 University response to OIG.
43 See Appendix 8.




                                                Page 11
      As indicated above, the BSC was improperly constituted, unclear as to its purpose, and
      uninformed about the very issues the University had delegated to it to review.
      Unsurprisingly, nobody else at the University was better informed about the responsibilities
      of the BSC than was the BSC itself.

      The University's Inquiry Report recognized that failures in the University's procedures and
      oversight and the subject's style of communication created the environment in which the
      subject could carry out research in a multi-user facility using deadly pathogens without
     adequate University oversight and approval. As a result, we find all the more troubling the -
     University's efforts, in its HIV Investigation Report, to place all the responsibility for these
     problems on the subject-while failing to ensure the future responsible behavior of
     University administrators then, and currently, assigned oversight and safety duties. This
     attitude of inattention, in a primarily undergraduate institution, was reflected in the responses
     we received personally fiorn University administrators when we visited the campus in 1996,
     as well as in written responses we have received since then, causes us to doubt that these
     University administrators will address these problems without emphatic action by NSF.44

  JmpIementation of the University's Exposure Control Plan

 In December 1991, OSHA issued the Standard for Occupational Exposure to Bloodborne
  Pathogens (the                          It required the University to implement a variety of safety
  practices. Among those were the need for the University to "establish a written Exposure
  Control Plan'46 by 5 May 1992, and by 4 June 1992, to train and notify its employees of the
 Standard. By 6 July 1992, it was required to have the proper biohazard warning signs,
 storage, use, and disposal procedures in place, as well as protective gear available for its
 employees and a post-exposure follow-up procedure. With regard to "H.V . . . Research
                             ~ ~ Standard stated "when other potentially infectious materials . . . are
 L a b o r a t ~ r i e s , 'the
 present in the work area . . . a hazard warning sign incorporating the universal biohazard
 symbol shall be posted on all access doors.'*8 The Standard specifies the information
 required on it, including the name of the agent and of the laboratory director.49 It also



" Our concerns were not alleviated by the University's response (Tab 32).      It described much of its effort as plans
   and aspirations. For example, it appears that much of the revamping of the oversight process occurred after the
   resignation of the Director of ORAD and the appointment of his replacement during the 1998-1999 academic
   year. Because these       have not yet been fully implemented, it is not known how effective they will be..
" Occupational Exposure to Bloodborne Pathogens, 56 Fed. Reg. 64,175 (1991) (codified at 29 CFR          1910.1030).      I
   29 C.F.R 6 1910.1030(c).
47 The laboratories to which this portion of the reghation applies are "research laboratories and production facilities
  engaged in the culture, production, concentration, experimentation, and manipulation of HIV and HBV." 29
  CFR 5 1910.1030(e)(l).
'' 29 CFR 8 1910.1030(e)(2)(ii)(D).
  Id. 19 10.1030(g)(l)(ii)(A).


                                                 Page 12
    specifies that a "biosafety manual shall be prepared or adopted and periodically reviewed and
    updated at least annually . . . .,>50

   The University's Coordinator of the Office of Environmental Health and Safety (the "EH&S
   Director")," hired in February 1990, became responsible for implementing the OSHA
   regulation. According to the HIV Investigation Committee,

            [ulntil attending a training session . . . on infectious agents and virology late in
            1993, [the EH&S Director] had no expertise in this area. Until early 1992, [the
            EH&S Director] had no interaction with either the [BSC] or ORAD, and, in                                      .   -
            fact, was unaware in 1990 and 1991 that the [BSC] existed.'*

   In May 1992, the EH&S Director sent a survey to the Biological Sciences Department lab
  manager and others requesting the identity of any pathogenic organisms being used. Later
  that month she received a response completed by either the subject or his postdoctoral
  researchers3 that identified the pathogens as "Entroviruses, Retroviruses (HIV,SIV),
  Poliovirus" to which employees might be exposed.54 The EH&S Director told us that she
  "reviewed [the survey for] about 30 seconds" and then "called [the Director of ORAD] who
  said it was no problem, because [the subject] was not using live H N and couldn't get it.""
  She did not contact the subject regarding his declared use of H N , SN, or poliovir~s.~~

  University' administrators claimed that since the subject did not use the adjectives live,
  infectious, or viableto modify HIV in the text of his proposals, it understood the subject to be
 using noninfectious, nonviable virus. From our review of the proposals we concluded that he
 had disclosed the use of infectious materials and that a more likely explanation is that the
 University was careless in its review of the survey responses and proposals, and did not react
 to the subject's clear references to the use of HIV and other pathogens in his research.57The
 assumption that the virus was not infective is difficult to understand. At the very least the
 responsible administrators should have sought clarification from the subject of his written



                                  of the EH&S Director to the HIV Investigation Committee, p. 7.

                       remnse are at Tab 24.
'' Tab 19, IS October 1996 affidavit of the EH&S Director, p. 2.       However, she said that she did not provide this
     information in her testimony to the H N Investigation Committee or in her prior response to NSF because she did
     not want to "implicate" the Director of ORAD. Id. She claimed that the order of presentation of the information
     provided on the survey caused her to believe that the subject was not using "live HIV." 9 January 1996 memo to
     the General Counsel. This latter explanation is not credible.
 56
      Similarly, the EH&S Director did not follow up on the subject's declared use of poliovirus despite her knowledge
    that it was covered by the Standard she was responsible for implementing. In her 22 February 1994 memo to the
    HIV Investigation Committee, the EH&S Director stated, "polio virus, as a bloodborne pathogen found in human
    bloodJbody fluidsltissues is undoubtedly covered by the standard . . . . [Tlhe Standard is absolute, without regard
    to immunization status."
'' See Appendix 12 and Tabs 26-28.

                                                 Page 13
      notification, rather than crtditing oral speculation by those wl.10 were not conducting the
      research.

     In our view, the University's position is inconsistent with the plain text of the subject's
     proposals, which clearly indicate that he is attempting to identify and assess the survivability
     of HIV persisting in wastewater. The University's position is also inconsistent with the
     biological scientific community's understanding of the term "virus," which, by definition, is
     a synonym for "infectious agent.""

     When we asked the HIV Investigation Committee why it took this contrary view it said that -
     the subject

              himself has written terms such as live HIY; authentic HIV and viable HIY in
              order to make clear to the reader that this is not refening to attenuated or
              inactivated HTV. . . . ~]ollowinga review of the May, 1990 NSF application,
              it is the opinion of the investigation committee that all of'the experiments
              described in the proposal could have been done without viable HIV. Thus,
              even though the word HIV was present in the title of this application, it was
             the opinion of the Committee that all of the experiments described in the
             application could have been done with inactivated HIV. The Committee
             concluded that regardless of what the general convention might be for the
             usage of the term HIV, in the context in which [the subject] used the term in
             the May 1990 NSF Application, it referred to samples which would be
             inactivatedeS9

The Committee's rationale (and that of the administrators it interviewed) requires that one
accept the premise that if one can conjure up a way that this research could be done without
using infectious material, that this should be accepted without clarifi~ation.~~
                                                                             We believe that
it was inappropriate, particularly for research with a fatal disease vector, for University
administrators not to have determined the infectivity of the H I ' or wastewater samples and
taken the appropriate precautions. We do not find the University's efforts to explain the
decisions by the EH&S Director and the Director of ORAD to be credible. Had University
administrators or the oversight committee members acted responsibly, the University could

58   Davis, et. al., Microbiology, 3d Ed., Harper & Row, 1980, p. 7.
'' 12 January 1996 response of the HIV Investigation Committee to OIG, p. 2.
6~ Inits response, the university said, "The Committee's report pointed out that there was a general impression at the
 university that [the subject] was working with inactivated HIV. Although this impression was supported by the
 article on [the subject's] research which was written by [another author] and appeared in the Wniverslty
 newspaper], the committee did not intend to indicate their general impression was reasonable." (Tab 32, p. 6).
 We were concerned by this response because the committee report expresses information about this issue as its
 beliefs and therefore appears to be its opinion on the reasonableness of this impression. (Tab 2, p. 22.) We note
 that the "general impression" was partly based on misinformation and second-hand knowledge, and that the
 committee had received information that contradicted the "impression." The newspaper article used to support the
 "general impression," did not discuss whether or not the subject was using infective virus.


                                                  Page 14
          have reacted, in a timely manner, to the subject's proposed use of biohazardous materials and
          taken the appropriate safety precautions.6'

          The subject also had a responsibility to ensure that the University considered the safety
          implications of the potentially infectious samples he used for its employees and students, and
          to ensure that his use of the samples was consistent with the intent of the University's
          Exposure Control Plan.

          In September 1992, the EH&S Director circulated a second set of forms which were to be
          "distributed to . . . supervisory personnel." The forms sought information about bloodborne
          pathogens but did not request the identity of the pathogens. These forms were completed by
          the biology stockroom technician,62who told us she recommended that the EH&S Director
'
          speak with the subject about his use of HI'V.~~ The EH&S Director did not do so.64*65

      On 30 September 1992, the EH&S Director circulated the Bloodborne Pathogen Exposure
      Control Plan to the Biological Sciences Department, and on 6 October 1992, she conducted a
      training session in the Department attended by the subject. The subject and others had been
      specifically invited to the seminar because "your lab uses human biohazardous materials,
      [and] you are required to have training in this subject."66

     Besides HIV, SIV, and poliovirus, the subject's research required the processing and
     extraction of possible viral contaminates from human sewage. There is no indication that the
     University considered the safety issues associated with the subject's collection and use of
     human sewage. His use of these materials is of particular concern because 1) the stated
     objective of the subject's external and internal wastewater proposals was to demonstrate the
     persistence, or survivability, of infectious pathogens in wastewater; and 2) some of these

     61
          The HIV Investigation Committee's lack of discussion of this issue is a clear example of its unwillingness to
         address systematic University deficiencies. The Committee wrote that "[We] wish to emphasize that this
         discussion should in no way be considered a criticism of [the EH&S Director]." H N Investigation Committee
        Report, p. 12. However, in the same Report, it later acknowledged the inadequacy of her efforts, albeit
        apologetically: "It is clear that [in October 19921 the method of information-gathering used by EH&S was


          'ibd
        evolving and undergoing improvements with regard to accurately determining who was using which pathogens in
        th various researc epartments." Id. at 53 (emphasis added).
     62                               iH&S Director indicated that the biology aiakroam technician handled this matter
        because e epartment Lab Manager, who normally would have handled the matter, was unresponsive.
        Tab 11, 18 October 1996 affidavit of the biology stockroom technician, p. 2.
        Tab 19. 15 October 1996 affidavit ofthe EH&S Director, p. 2.
     65 We note that in the University's response it said that one of the changes that had been implemented was that the
        Office of Environmental Health and Safety "modified and added to the Blood Borne Pathogens (BBP) record
        keeping forms to require more detailed information fiom researchers regarding the infectious agents being
       handled, and added a requirement for a signature certifying that the researchers obtained Biosafety Committee
       Approval." (Tab 32, p. 4). In 1992, the subject provided the EH&S Director with sufficient information to alert
       her to his use of lethal, infectious, blood borne pathogens and she chose to ignore the information and did not ask
       him what he was doing. It is unclear how revising EH&S forms will prevent such communicationsproblems from
       reoccurring.
    66 22 September 1992 memo fiom the biology stockroom technician.




                                                     Page 15
    samples were taken from a part~cularlocation because they were cons~deredto be more likely
    to contaln HIV than samples from other 10cations.~~  The OSHA Standard explains that the
    Universal Precautions described in it are an approach to infection control." It instructs that
    "Universal Precautions shall be observed to prevent contact with blood or other potentially
    infectious materials. Under circumstances in which differentiation between body fluid types
   is difficult or impossible, all body fluids shall be considered potentially infectious
   materials."69 Although these precautions reasonably apply to the subject's sewage samples,
   there is no evidence that the University considered whether these samples were infectious
   and should be handled according to the precautions described in the Standard.

                          Applications for Repistration of rDNA ~ a b o r a t o r i e g

  The systemic character of thc University's inadequate oversight is further illustrated by its
  handling of its applications to register its laboratories conducting rDNA research with the
             Department of P,ublic Health. In the three application[^ for Registration of
 Laboratories for Recombinant DNA Research we reviewed (submitted in 1987, 1989, and
  1991)," the "responsible officer for the Institution" signed a statement "affirm[ing] that this
 Institution and the laboratories listed herein are complying with the current NIH Guidelines
 for recombinant DNA research."* However, the BSC was not involved in the review and
 preparation of the-applications, or the projects listed on them, even though the BSC is the
 University entity expressly charged with the approval of projects that fall under the
 Guidelines (and for independently assessing the project containment levels, facilities,
 procedures, practices, and training).

 This protracted failure by the University to comply with its own oversight policy is
 particularly noteworthy in light of the fact that the SLO and certain researchers involved in
 preparing the applications were also members of the BSC.'~




"See Tab 28, NSF proposal number 6          .     9      .
   29 CFR 8 1910.1030(b) (1992).                                .   .
69 Id. at (d).

70 Although many of the events'described in this section are not directly associated with NSF hnding, we believe
  they support the conclusion that the University's oversight process was disorganized and ineffectual and its Pis
  uninformed about their responsibilities with regard to oversight.
" See Tab 25.
" See Appendix 1. These officers were (       t    h     e AOR who preceded
" One applicant had been a BSC member since 1984 and two others were
  applicants, who was the BSC chair at the time of our visit, said he "submitted [the applications] to the State
  directly;" the "[florms didn't go to [the] BSC." (Tab 22, 18 October 1996 affidavit of the Chairman of the
 Biosafety Committee, p. 3) The University told us that its officials could "not recall the details of the process by
 which the applications were reviewed by [the University] or the BSC" and that "the PI'S [sic] were requested to
 designate rooms and P levels for registrations." (3 1 March 1997 letter from the University to OIG).


                                                Page 16
                        TheP-bof                                        ect's Proposals

      It is unsurprising that the Un~versity'sabsence of oversight included its handling of the
      subject's proposals. Including internal applications, subcontracts, external proposals, and
      requests for supplemental funding, prior to the 1993 inquiry into this matter, the subject
      submitted 31 requests for research funding either to University committees or to external
      sponsors-all with University approval.74 And contrary to the surprise described by the
      University in its HIV Investigation Report, in fact the subject clearly stated his plans to use
     infectious human pathogens in his internal and external proposals, which were properly
     submitted to University administrators for their review and approval. These were not
     confidential documents: announcements about his submitted proposals and funded projects
     were placed by ORAD in its Research Bulletin; the subject posted articles about his research
     on a departmental bulletin board, across fi-om the department office; and the subject indicated
     on each external proposal Form that the project involved rDNA. Despite these repeated
     declarations, no University administrator or BSC member acted to ensure that the subject's
     work was reviewed and approved.

     Although we focus on the subject's internal applications and external submissions, we also
     discuss other researchers' applications and submissions that we believe demonstrate that the
     University's deficient oversight practices were not limited to the subject's proposals or
     applications.

 The Subject's Internal Funding Requests

 The subject submitted 14 applications for internal funding to three internal University
 committees: the University Research Committee (WRC), the Biomedical Research Support
 Grant (BRSG) Committee, and the Research Excellence Fund (REF) Committee.

Although external proposals require a completed Form with explicit declaration of any use of
rDNA, and administrative confirmation of BSC review, there was, at the time of the subject's
submissions, no such declaration requirement for internal proposals to any of these
committees. Although the committees referred a few proposals to the BSC, in general they
reviewed and approved projects without regard for biosafety oversight.   -

The URC7'

The URC reviews applications for intramural research funds from students and faculty.
From 1990 to 1992, the subject submitted four applications to the URC, and received funding
for one.76 None of his applications, including the funded project that specifically mentioned

74   See Appendix 9.
''See Au~endix10 for additional material reaardinp.
                                           - - the URC and the REF Committee.
" The    &plications were entitled,                                    -!(1990),                1
                                      ~       Y funded)
                                          F 1990,


                                           Page 17
      genetic eng~neering,was referred to the BSC or another safety body for review and approval.
      Information provided by the University showed that its handling of the subject's applications
      was not unusual.

     Among the 46 projects funded by the URC between 1988 and - 1996, fourteen explicitly
     involved biohazardous research-nine of these were funded .between 1989 and 1993 (the
     period from the subject's hire to the inception of the inirestigation)."

      Four of the funded projects studied a parasite that causes "homble disfiguration" in
      mammals, including h~rnans.'~    One of these projects was referred to the Institutional Animal                    .
      Care and Use Committee (IACUC). It concluded "there will be no hazard to other research
      animals or personnel fiom these studies."79 None was referred to the BSC until December
      1993. The BSC gave that project conditional biosafety approval contingent on the BSC
     Chair reviewing specific rooms used in the research "for suitability for BSL2 activity" and a
     ''[c]larification" of the assertion in the proposal that "this organism does not multiply in
     mammals. . . .
                                        I
                     9,




  The URC records show that although the University began careful radiation reviews after the
  'NRC Crisis," it did not extend its concern for safety oversight to enstying reviews in other
 safety areas." The URC's lack of attention to obvious biosafety concerns is particularly
 disturbing in light of the fact that the Director of ORAD, who was an ex oflcio member of
 the WRC since 1991, had overall responsibility for safety issues at the University, was
 intimately involved in the 'WRC Crisis" response, and understood that the BSC had been
 charged with expanding its authority to include oversight over all biosafety i s s ~ e s . ~ '

 The BRSG Committee

The BRSG Committee obtained funds from NIH to support biomedical and behavioral
research. The proposal cover pages accompanying the University's annual BRSG
competition announcements' require no information about the potential hazards of the
research, nor do the announcements require approvals fiom University safety committees.


      The details of these 14 awards are provided in Appendik 11. The University provided us with BSC reviews for
     two other projects that did not match their descriptions.
 'I3 According to the PI'S materials, this parasite-i~                     transmitted by infected mosquito bites into
     humans where it blocks lymphatic ducts.
''    I 1 February 1991 IACUC approval by the faculty member who was subsequently appointed Chalrman of the HIV
     Investigation Committee.
 80
     For example, although this is not related to the URC,we noted in the University's response that "[iln 1996, the
    university had been cited p y the USDA] for lack of review of [an] investigator's proposed projects. The 1997
    inspection contains an indication that the University had corrected this concern." (Tab 32, p. 7.)
13' The Director of ORAD stated that the BSC expanded its authority shortly after its inception to provide approval
    for experiments using infectious agents and for its review in 1989 of the subject's research. See Appendix 3 and
    20 December 1995 memorandum from the Director or ORAD to the General Counsel, p. 2.


                                                 Page 18
     Between 1989 and 1993, the BRSG funded 22 projects but referred only one to the BSC for
     review.82 Among the funded projects not referred were two by the subject,83which described
      experiments clearly involving rDNA and/or biohazardous materials, and those by another
      faculty member to study the parasite described above. In 1994, following the highly-
     publicized controversy over the subject's research, the BRSG referred at least four proposals
     to the Director of ORAD for biosafety review. Clearly-like the rest of the University-the
     BRSG had been unsure of the BSC's function and only the events surrounding the review of
     the subject's 1993 proposals heightened its awareness of the need to obtain such biosafety
     oversight.

     The REF Executive Committee

 The REF Committee Chairman, who was also a member of the BSC from 1989-1993,
 explained the committee's charge as the "allocation of REF funding for biotechnology
 research" at the University. He also said that "[r]equests for REF funding have not been
 formally coordinated with the BSC, I R B , ~IACUC,
                                                ~~]       Radiation safety, etc. Applicants for
 REF support are responsible for independent approval for projects that pose potential
 hazards."85 To the contrary' between 1989 and 1993, the annually issued instructions for
 REF applications did not require applicants to obtain relevant safety committee approvals.

 Between 1989 and 1993, the subject submitted six applications to the REF Committee and
 received a total of $13,000 in funding for three of them.g6 Even though the applications that
 described projects involving the use of rDNA or biohazardous materials clearly described
 that use, none was reviewed by a safety committee. During the reviewg7of the subject%
 1993 REF application, the second such application to involve the use of HIV, the REF                         I
                                                                                                              I
 Chairman
                                                                                                              I


82
     In December 1989. the committee was concerned about the use of "clinically dangerous organisms;   e.g.
                       tc." in n faculty member's proposal entile(-




'' 2 1 December 1995 memo fhm the REF Comrmttee Chairman to General Counsel D. 1.



"See Appendix   10 for descriptions of the review process employed by the REF Committee.


                                              Page 19
            ralsed the [b~osafety]issue. . . . [Wlell the whole committee was aware
            immediately and was concerned.. And since I also served on the [BSC], I
            assured the committee that this was the first I had heard [ofJ live HIV."

     The subject's 1991 and 1992 REF applications outlined the subject's plans to work with
     human bloodborne pathogens, potentially contaminated materials, and rDNA in conducting
     his research. The REF committee did not refer any of these projects to the BSC or express
     concern about its use with any administrative official or the subject.

   Regarding the subject's 1992 application,
 '      t       h        e REF Chairman later said, "I wonder how it got past us."8g Another
   Committee member said:

           "in retrospect" [I] realizeD that "tissue, culture" means HIV[; the] same
           sentence that caused alarm in 93 was in [the] 92 proposal and says the same
           thing; it didn't impact [my] awareness; "obviously [I] didn't read it real
           closely." 90

    With regard to the subject's 1991' application,' which explicitly stated that the project
    involved HIV, the REF Committee member said

           "persistence" [of HIV] means whether it's alive;'it was assumed [the subject]
           was doing tests without live virus, . . . but [IJ now see 0 references to "tissue
                                             a
           culture" which [I] understand means live, infective virus; looking at this
          proposal now, I see something totally different. [IJ agree I]that this should
          have been the first time the REF committee realized what [the subject] was
          doing. [The rleason for REF committee's not realizing @is] activities [was
          that the University] was "na'ive" and did not have the expertise to understand
          these issues . . . .9 1

We would have expected a strong, natural linkage between the BSC and the REF Committee
because of the nature of the projects funded by the REF Committee-and the fact that the
REF Committee chairman was a longstanding member of the BSC. However, there was little
or no communication betweeh these two committees, and none of the subject's applications
described above was referred to the BSC before 1993.




"    6 December 1993 testimony of the REF Committee Chairman to the HIV Investigation Committee, p. 26.
    Subsequent concern by the REF Committee and the BSC gave rise to this case.
89 Tab 7, 16 October 1996 affidavit of the REF Comrnittee Chairman, p. 2.

* Tab 10, 1 5 October 1995 affidavit of Department ofBiology Faculty Member 1, p. 2.
9 1 Id.




                                           Page 20
                                                                                                            Q
      Subcontract Support for the Subject's Research

     Unlike proposals submitted to external sponsors for research grants, the University did not
     require safety committee approval of research supported by external contract. In late 1989,
     two of the subject's ongoing research projects supported by his former institution were
     transferred from his former institution to the University by means of subcontract^.^^ In early
     1992, the University also completed a subcontract supporting the subject's efforts on a
     collaborative project with a PI at another university funded by an NSF award to the other
     ~niversity.~~

     The three subcontracts that supported the subject's research efforts were completed by the
     Office of Risk Management                   a function separate fiom ORAD. According to
     the Risk Management Dire~tor,~~  contracts came to Risk Management through ORAD, but
     were processed separately, and Risk Management's roie was limited to liability issues.95
     There were no forms or established procedures for review of any subcontracts by any
     oversight committee. We were told that review occurred on an ad hoe basis if the Director of
     Risk Management requested it fiom the Director of OR AD.^^

  At least one of the subcontracts issued in 1989 for the subject's research involved rDNA and,
  therefore, if it had been submitted as     external proposal it would have been required, by
 University policy, to receive BSC approval.97 The 1992 subcontract, funded by the NSF
 grant to the other university, supported the subject's work on the feasibility of a probe for the
 detection of HIV. The BSC was not informed of this project (it was, however, reviewed by
 the University's general counsel's office for liability issues). It was executed 4 months after
 the deadline for the establishment of the University's Exposure Control Plan had passed and
 7 months after the BSC had been charged with expanding its review of hazardous organisms.

 The handling of these subcontracts, particularly for the NSF grant, demonstrates an
 extraordinary lack of coordination between the University's offices and inconsistent
application of safety reviews to externally supported research efforts. Our conclusion is
supported by the observations of the Director of ORAD, the Vice Provost, and Risk
Managementg8who told us that the connection between Risk Management and the Biosafety
Committee was informal and there were no established procedures to ensure the hazard
review of research described in contracts.


92   The project titles were:                                                                and-

                                                                                amed D~.-s          the PI. It

  The Director is Ms.
95Tab 12, 17 October 1996 affidavit of the Director of Risk Management, p. 2.
% Tab 18, 15 October 1996 affidavit of the Vice Provost, p. 4.
* See Tab 26.
" See Tab 9, p. 4; Tab 12, p. 2, and Tab 14, p. 2.




                                 ,             Page 2 1
           The Subject's External Submissions

           The University's procedures require that proposals submitted to external sponsors be
           approved by the AOR; this approval is to be preceded by approvals by the appropriate safety
           c ~ m r n i t t e e s . ~From
                                     ~ 1989 through 1993, when the University's investigation began, the
          subject submitted ten proposals to four federal agencies, inchding NSF. He also submitted
          two requests for supplemental funding to NSF and two proposals to. private foundations                         ,

          seeking support for his research.loO Although each of his proposals described the use of
          rDNA and/or other biohazardous materials, and the Forms indicated 'the need for BSC
          review, none received it.

       We have included copies of subject's NSF award,-                     his NSF proposal-
    -and             the award to the PI at the other University."' We have highlighted those
       portions of them that clearly indicate the project's use of biohazardous materials or rDNA.
       For example, the subject's December I991 supplemental fimding request to NSF clearly
      states his intention to determine whether "the persistence of HIV-I-specific nucleic acid in
      some wastewater samples . . . are from the infective or noninfective virus." It states his
      intention to expose tissue cultured cells to virus concentrate developed from wastewater and
      "monitor for the cytopathic effects and cornparen with the simultaneously run positive
      ~onf~o1~."'~~~~~~

     The one-page request was countersigned by the Director of ORAD, who told us that the
     subject presented it to him and said he needed it signed right away so that he could get
     funding. The Director of ORAD told us that he read it and signed it, but nothing stood out
     that concerned him. He noted that he had no training in viruses and was unaware that he had
     any responsibilities regarding b i ~ s a f e t ~ . He
                                                        " ~ acknowledged that the letter did not reflect an
     attempt by the subject to hide what he was trying to do, and that he simply didn't pay enough
     attention to it.''' The Director of ORAD told the H N Investigation Committee:

                1 must admit that the level of training that I had in molecular biology and in
                virology was virtually nonexistent and it was not possible for me to look
                critically at that supplemental request and the detail within it to ascertain
                whether there was any thing really potentially harmful or not. Io6


.   99    See Appendix 2.
           See Appendix 9.
       'O' See Appendix 12 and Tabs 26-28.
      Io2 A positive control, in this case, would be created by exposing the same cell cultures to a known quantity of
          purified HIV.
    'ol See Tab 28.
    Io4 Tab 14, Notes of 15 October 1996 OIG interview with the Director of ORAD, p. 2.
    los   Id.
    '0622 November 1993 testimony of the Director of ORAD to the HIV Investigation Committee, p. 2. See similar
      assessment of the EH&S Director's viroIogy knowledge, discussed above.


                                                   Page 22
I


           Thus, aware of his ignorance'of the subject matter of the request, but without inquiring of the
           subject or anyone else knowledgeable in the field, the University official entrusted with
           responsibility for biosafety approved this request. This is fundamentally irresponsible. The
           signature of an approving officer is only meaningful insofar as it indicates that the matter has
          been considered and approved by an individual who is capable of understanding the details of
          the matter, and who is capable of determining whether any basis for disapproving the request
          exists. By serving as a "rubber stamp" for this supplemental request, this administrator
          placed form over substance in a way that endangered the safety of numerous individuals at
          the University.

                            Conclusion Repardin the Universitv's Oversi~htof Biosafety

          We believe the evidence demonstrates the University's failure, despite its professed 'concern,
          to establish either clear, well-defined, and appropriate oversight guidelines, and to
          disseminate those jyidelinds to the appropriate parties, or a functional, comprehensive
          oversight structure. These failures created a systemic, long-term atmosphere of inattention
          regarding biosafety issues. We believe that our recommendations as to the University are
          necessary to protect NSF's interest that its h d e d research is carried out in ensuring a safe
          environment, for the public, faculty members, and students.



      As has been described above, the University's oversight structure and procedures were totally
      inadequate for the kind of research being conducted by the subject. However, such
      deficiencies do not liberate the subject from upholding his well-recognized responsibilities,
      and to comply with express commitments he made in order to obtain biohazardous materials
      to use in his research.'''

     The subject was an experienced researcher who was well aware of his responsibilities. In
     1989, the University conducted a nationwide campaign seeking a scientist with "experience
     in molecular biology"-someone with "sufficient experience to merit immediate
    consideration for promotion to associate professor with tenure."'08 The University hired and
    promoted the subject because he was considered to be a leader in molecular biology for the
    Uni~ersity.''~ The subject acknowledged to us that he is, and was, well aware of relevant
    safety and oversight standards."" For example, the Public Health Service publishes Biosafety
    in Microbiological and Biomedical Laboratories"' (the Biosafety book), which is generally

    107
          See Tabs 29 and 30 for copies of the certifications discussed in this section.
    10

    '09See Appendix 13 for a more detailed discussion of the subject's application and credentials.
    'I0Tab 5, 17 October 1996 of the subject, pp. 2-3.
    "I The Biosafety b o d was revised in 1988 (HHS Pub. No. (NM) 88-8395) and 1993 (HHS Pub. No. (CDC)
      93-8395), but the basic instructions in the book have not changed in these revisions. Both versions of the
      Biosafety book include as an appendix The 1988 Agent Summary Statement for Human Immunodefciency Virus


                                                        Page 23
       recognized to establish the minimal standard-and in the laboratory where his biohazardous
       research was conducted, the subject posted a notice instructing users to read the Biosafely
       book. ' 'l

       The laboratory director has the fundamental burden of ensuring the safe conduct of the
      research.'I3 For example, the laboratory director is required to prepare and have readily
      available a biosafety manual, and either to supervise directly or have a trained scientist
      supervise the research personnel.'I4 In addition, implementation of a biosafety regimen
      consistent with the Biosafety book requires the involvement of administrators in the
      institution. For example, a laboratory conducting research with HIV should have in place:

      1)       a medical surveillance program that is consistent with "institution policy and
               applicable local, state, and Federal regulation^;""^
      2)      written institution policies "regarding the management of laboratory exposure to HIV,
              such policies should deal with confidentiality, counseling, and other related issue^;""^
              and
      3)      institution policies to ensure "safe and healthful working conditions to protect
              employees against occupation infection with HN.""7

   None of these objectives can be accomplished without the assistance of university
  administrators knowledgeable about the applicable policies and laws. However, neither the
  indifference of those administrators nor the existence of inadequate oversight mechanisms
  relieves the laboratory director of those responsibilities that require active institutional
  involvement. In this case, when the subject was faced with what he Mew to be inadequate
  oversight processes and practices at the University, he chose to continue his research project
  in disregard of his commitments to ensure safety and oversight.

 The Subject's Acquisition and Use of Biohazardous Materials

As part of his approved research activities at the University, the subject requested and
received, between December 1990 and February 1993, potentially pathogenic material^,"^

      and Report of kboratory-Acquired Infection with Human Immunodeficiency Virus, first published in Morbidity
      and Mortality Weekly Report, April 1, 1988, vol. 37, no. S-4 (referred to herein as the "MMWR").
'I2     The first lme of the undated Users ofP-2facilityfor infectious materiak memo the subject posted stated: "Please
      read the HHS publication No. (N[IJH)88-8395and HHS Publication No. (CDC) 88-8395." Both citations refer to
      the Biosafery book.
 113
       See, e.g , the Biosafety book p. 4, 8-9 and MMWR at 11 1.
 'I4See Blosafely book, p. 4,8-9.

 I t s MMWR at 1 1 1.                    11
       Id.
       rd.
' I 8 The laboratory notebooks show that some of these agents were simply received and stored for subsequent use in
     freezers. The remainder were used in numerous experiments (see Appendix 14) conducfed by two successive
     postdoctoral researchers. Some were received in the July to September 1992 period when the subject was out of


                                                 Page 24
                                                                                                                                  ,
       including reagents, cells, HIV,. SIV, poliovirus, and raw human sewage from five different
       sources. ' l 9
                                                                                                                      -
      The subject submitted his first request .to the
    h             e AIDS Program) in December 1990. prior to placingmis order, the subject an!
      the Director of ORAD signed the Annual Repository Registration ~orrn,'~'and the subject
,     initialed a Certification of Compliance with Safety Standards within the Registration
     Form:     '*'
               I understand that the requested substance(s) may pose health risks to persons
               handling or in the vicinity of the material, the environment, and the
              community. In that regard, I certify that I am cognizant of and will employ the
              appropriate biosafety 'standards including special practices, equipment, and
              facilities as specified in the Material Data Sheet. I will comply with a l l
              applicable Government health and safety regulations and the Guidelines
              detailed in [the MMWR'*]. I will directly supervise all users of the reagents
              and I will assume responsibility for assuring that those users are cognizant of
              and comply with safety standards and good laboratory p r a ~ t i c e s . ' ~ ~ , " ~
                                           I                               *


    The AIDS Program informed him that it could not provide him with a biohazardous item he
    requested without an indemnification form endorsed by the University, which the University
    decided to provide only after much deliberation,I2' including a tour of his 1ab0rator-y.'~~

      the country. It is unclear whom, during his absence, was appointed to provide the supervision recommended by
      the Biosafehr book and MMWR.
                                                                          e Reagent Program, Dr.
                                                                      nd other scientists, and The        I
                                                                                 description of his use of the reagents. The
       subject stated that "the cell lines will also be usefulfor determining the viable counts of the virus in the samples."
    12' See Tab 29. The Registration Form identified NSF gran-an-as                                            support for this
       research.
    '=Seenote 111.

                                               ect was out of the country for approximately one month when some of
     these experiments were conducted. He tektified that, because of his abbe&;, he had not reviewed his postdoctoral
     researcher's work and was unaware of his use of H N in a particular experiment. See 7 February 1994 transcript
     of the subject's interview with the HIV Investigation Committee, pp: 123-128.
'11    See 17 December memo from the staff attorney (now General Counsel) to the Senior Vice President for
     Academic Affairs and Provost and the Vice President for Finance and Administration. The staff attomey told
     senior officials "once the Compliance Agreement is in the hands of [the AIDS Program, it] may then use it for any
     substance which [the University] purchases from [it], until . . . the Compliance Agreement expires." See also the
     10 December memo &om the Director of ORAD.
 '26 The Director of ORAD, Dean, and the Vice Provost "thoroughly investigated" the subject's laboratories on 19
    December 1991. Their conclusions that (1) "the containment equipment [the subject] plans to use in his next
    research project. .. have a safety mting significantly above that which would be required if the cell line which he
    intends to pursue had any potential hazard associated with it" and (2) "there is no danger, either present or future
    in the organism requested nor in the experiments proposed," were documented in a 19 December memo fiom the
                                      I




                                                      Page 25
        Between October 1991 and February 1993, the subject placed six orders with the AIDS
        Program. Among the items he received were nine that were identified as biohazardous and
        the accompanying data sheets specified that BSL-2 practices were required to handle the
I       materials. '"

       Some of the research conducted in the subject's laboratory used SIV engineered for reduced
       pathogenicity, obtained from either another researcher or the AIDS program. To receive this
       virus from the other researcher, the subject signed a document provided by the researcher
       stating that he accepted the conditions that the

                materials are to be used with caution and prudence in any experimental work
                since all of their characteristics are not known. Cells and supemate containing
                virus must be handled with caution and with appropriate biosafety procedures
                and eq~iprnent.'~~li

     After a conversation with the other researcher, the subject provided a written assurance that
     "the virus will not be released into the environment in any circumstance^."'^^ The other
     researcher concern about the use of SIV became formal in September 1992, the CDC and
     NIH began circulating information about the possibility of humans contracting SIV.
     Subsequently, in May 1992 and January 1993, the subject received shipments of this virus
     fiom the AIDS Program. The data sheet accompanying these shipments stated, "STRICT
     ADHERENCE TO BIOSAFETY LEVEL-2 PRACTICES IS REQUIRED.""'

     The subject permitted the use of this virus in experiments and took no action to ensure
     institutional involvement, aslwould have been appropriate according to the Biosafety book,
     the new C D C N H warning, the institution's Exposure Control Plan, or as necessitated by the
     BSL-2 warnings on the materials safety data sheet and certification he signed to obtain this
     virus.

     In December 1990, to obtain cell lines from the Human Genetic Mutant Cell Repository, the
     subject signed an Agreement to "adhere to the procedures and recommendations outlined in

         Vice Provost. See Appendix 5 for a discussion of the qualifications of these individuals to review the subject's
         laboratory. The State InsfitutionalComplianceAgreement, was dated 20 December 1991 and was endorsed by the
         University's Director of Risk Management                     and countersigned by the subject.
     I*' See Appendix 15.
          18 June 1991 letter from the researcher to the postdoctoral researcher. On 10 June 1991, the subject endorsed the
        letter as an official of the "Research University or Nonprofit Institution" and the postdoctoral researcher as the
        "Research Investigator."
     129
          The researcher sought this assurance because he was concerned about "whether appropriate safety conditions
        were available at [the University], which he described as a small university with little research activity." 7
        December 1993 notes by f                        conversation with the researcher, p. 1. In its response, the University
        expressed concern about the researc er's characterization of it as "small." However, we note that the Director of
     OGD        described it similarly to us (Tab 4, p. 3). We believe this characterization serves to provide context to our
        concerns (Tab 32, p. 7).
    "O Emphasis in original.




                                                       Page 26
       . . . the attached Minimum Safety Guidelines Recommended for Working with Lymplzoid atzd
       Virus-Transformed Human Cell Lines."13' The Minimum Safety Guidelines stated that it was
       the University management's responsibility to

              establish a biohazards committee to institute and enforce a health and safety
              policy which includes a specific safety program for work involving human cell
              lines. The program should meet applicable federal, state, and local regulations
              and include safety training, maintenance of accident records, and provision for
              emergency treatment. '32     I




       The Minimum Safety Guidelines also specified that the PI was responsible for

             the preparation of slafety protocds for the research program under his
             direction. The protocols should include appropriate procedures for use,
             storage, decontamination, disposal, and emergency treatment. The protocols
             should be approved by the biohazards committee and' discussed with the
             research staff before starting the research program. '33
                                                                           I


       The subject signed this Agreement knowing that there was no such biohazards ~ornmittee'~~
      and no protocols approved by a biohazards committee for his research. He obligated himself
      by the Agreement not to conduct any biohazardous research until a biohazards committee had
      been created and had approved his activities. By proceeding with his research in the absence
      of such oversight, he violated his Agreement with the cell rep~sitory'~'    and his broader
      responsibility to conduct resekch in a trustworthy matter.
                                       ,
 Although the subject repeatedly committed to complying with standards he knew he could
 not be meeting, he did take some steps to ensure that the research was conducted in a safe
manner. It appears that the subject posted a universal biohazard sign on the door of the
multi-user facility (the sign did not specify the infectious agent and was removed by another
faculty member), and he placed a P2 label on the biological hood used by his laboratory
                    ~ ~ claims to have posted, some time in 1991, a Laboratory Biosafety Level 2
p e r s o ~ e 1 . l He
notice on the room door, that itemized Standard Practices and Special Practices, and that
instructed users to "[rleport spills and accidents immediately to" him and another scientist.

''I   See Tab 30.
      Id.
 "'id.
 13' In a 9 December 1991 memo to the Director of ORAD he had called for its "activation." This memo was the
    subject of some debate within the HN Investigation Committee, see Tab 2, pp. 24-25.
I" This view is consistent with the University's findings on this issue. HIV Investigation Report, p. 14.
     The Multi-user Facility Director 2 removed the sign. He told us that he "didn't see P2 instructions, but saw (and
    took down) slgn on door of 304D identifying 304D as a P2 facility; [the Multi-user Facility Director 21 took the
                                                                                                                            '
    sign down (this was after May 92) and threw it out, because he saw no reason to call it a P2 facility; doesn't recall
    sign on hood for P2." Tab 17, 16 October 1996 affidavit of the Multi-user Facility Director 2, p. 2. He did not
    inquire who had posted the sign or why.


                                                  Page 27
      And as part of the BSC's much-delayed effort to implement the Vice Provost's instructions
      for it to review biosafety matters, the subject provided it with a draft of a biosafety manual,
      which he subsequently revised and circulated to the committee.
                                           'I

      Assessment of the Subject's Responsibility

    Between December 1990 and February 1993, the subject permitted research to be conducted
   that violated the commitments he made in order to obtain biohazardous materials. His
   acquisition agreements with the AIDS Program and from the Cell Repository obligated him
   to take those steps necessary to ensure the safety of his colleagues and oversight by the -
   University. He knew there was no credible oversight over his research and that no biosafety
   manual or institutional biosafek standards existed at the University. The MMWR-which
   he agreed to abide by to obtain materizls from the AIDS Program-states that the "laboratory
   director . . . is responsible for carrying out 'the biosafety program in the 1aborato1-y"'37and
  also specifies institutional responsibilities. The cell repository agreement he signed
  incorporated Minimum Safety Guidelines stating that there should be an institutional
  biohazards committee, and that his protocols should be approved by it before he began his
  research. By certifying on the AIDS Program and cell repository forms he committed
  himself, ethically and professionally, to University oversight with regard to his research.
  When he made these commitments with full knowledge that he would not-indeed, could
  not---comply with them, the subject violated his professional ethical responsibilities.

 When asked why he had submitted his NSF proposals without a biosafety review, the subject
 said he felt that BSC review

           was unnecessary due to the nature of the activity . . . [I] felt [I] only had to
           declare rDNA [and] the university ha[d] the responsibility to apply those rules
           to the p r ~ p ~ s a l . ' ~ *
                                       !




 He said that he had asked the Director of ORAD and the Vice Provost about the BSC in 1991
                                                                                                        -
 and he "thought they had to set up the committee" to provide oversight, and that his proposal
 would be approved before the work was started.'39 He asserted that he

           did the best he could in that environment; since the [BSC] didn't exist, he went
          ahead without it, since otherwise he couldn't have gotten his research program
          started and could facilitate tenure because it's not REQUIRED at [the
          University] (as [the subject] understood). [He] was interested in science only.
          [He] looked out for safety. . . but he was only one person, and couldn't change
          things single handedly; if be] had seen anything wrong in terms of risk, he

"'MMWR, Vol. 37INumber S-4, p. 5.
139

 the rDNA Guidelines by his former institution's B
                                                   'Tad
  Tab 5, 17 October 1996 affidavit of the subiect. D. 2.
  Id. He noted that this same proposal (ultimately           been reviewed and considered exempt from



                                                 Page 28
                     Gould have stopped. [ ~ e underst[oo]d
                                                ]           that it wasn't desirable for [the] PI to
                     be responsible for oversight on his own grants; tried not to make too many
                     waves being the new guy, and felt that even if he tried it wouldn't achieve
                     anything. 14'

        The commitments the subject made to conduct his research with University oversight and
        consistent with University policies requiqied him to coordinate his work with University
        officials and ensure ~ n i v e r s i kinvolvement in oversight of the research. In our view, the
        difficulties he may have encountered in obtaining this oversight or determining if policies
        existed did not relieve him of these responsibilities.

        Use of Research and Education for Undergraduates (REU) Funds

        As described in Appendix 12, the subject received $5,000 to support an undergraduate
        st~dent.'~'The University spent these funds. However, when we asked the University for
        financial documentation, it said no undergraduate had been employed. The University was
        unable to provide further detail about how these funds were spent. We believe the
        expenditure of these funds on efforts other than an REU student is unacceptable and the
        University should reimburse NSF for that amount.

                                                      OIG Pindincs

       We believe this case involves a serious, long-term, systemic breakdown in the administration
       of the University's oversight responsibilities and an abrogation of the subject's ethical
       responsibilities and commitments for the safe conduct of his research. We believe a
       preponderance of the evidence supports the conclusions that 1) the University did not provide
       responsible oversight over NSF-funded research and 2) the subject did not uphold the
       commitments he made to obtain the biohazardous materials used in his research.

       The University

   The evidence shows that for years the University maintained an improperly convened,
   inexperienced BSC that reviewed research projects on an inconsistent basis. The committee
  members were unevenly aware of its responsibilities and the faculty was unevenly aware of
  its existence or its charge. The University's efforts, as exhibited by the actions of the
  administrators and committees with regard to radiation safety, rDNA review, and infectious
  agents, can be described as casual, at best.I4' We concluded that the University has provided
  little credible guidance to its researchers about its requirements and expectations in the area
  of biosafety generally, as well as with regard to the subject's research under his NSF award.
                                                2




  140   Id. at 2-3
 14'    -
        .
        S
        M
'41     Appendix 16 provides a summa& of the instances of problematic oversight described in this report.


                                                    Page 29
      This finding IS supported by the Inquiry Report, which reflected the fa~lureof both the
      subject and the University to act responsibly. In its HIV Investigation Report, the University,
      however, ultimately decided to take strong action regarding the subject only, while ignoring
      its own administrators' failings. The arbitrator reversed the subject's penalty partly in
      recognition of the University's share of responsibility.

   Although many of the events of this case occurred some years ago, we continue to be
   concerned about the University's understanding and administration of its primary
   responsibility as the grantee for oversight issues and about the persistence of the attitudes that
   led to the desultory approach to biosafety review. It has revised some manuals and the Form
  and reconstituted the BSC,'43 but these actions fail to address the sources of the
  administrative breakdown. The final approval of the Form and responsibilities for the
  oversight committee rest with!the Director of ORAD, and for biohazards with the Director of
  EH&S. No changes in management or supervision were made to correct the significant
  failures of these individuals to execute their responsibilities.

 The University's unbalanced approach to this case-that is, its emphasis on the subject's
 failings to the exclusion of its own-also concerns us.14' When we asked about this, the Vice
  resident'^^ told us that the Vice Provost and the Director of ORAD had, been re~rirnanded.'~~
 However, when we asked for the supporting documentation fiom the University's files, we
 were told that their personnel files did not contain any "records of any disciplinary action
 against either individual because of facts revealed in the case. . .        At the arbitration
 hearing, the Director of ORAD denied ever being disciplined as a result of this rnatter.l4'
                                        I


NSF has no assurance that the individuals who are in these positions appreciate their
responsibilities, or that they can and intend to execute the University's oversight duties. It
also has no assurance that the University's training system ensures that its scientists
understand their and the University's responsibilities.

143    Despite these changes, the BSC was incorrectly constituted at the time of our visit, and continued, in 1997, to
     have member attendance problems.
'"     In its response, the University said that after the departure of the Director of ORAD'in 1998, his replacement, an
     "internal candidate," began making changes in the procedures and manuals. (Tab 32, p. 2.) It is unclear if these
     changes will effectively alter the i~titutionalculture.
 14' See Appendix 17.
    e-r~                    current university president.
14'    He told us that the Director of ORAD and the Vlce Provost "were disciplined ([the Director of ORAD's]
    compensation was affected i.e. lower rating resulting in lower pay eligibility, [the Vice Provost] has received no
    pay increase and has resigned (negotiation; his performance as a factor in his resignation) effective 1-1-97); their
    performance reviews reflect statements re: their management of process and the policies, but not this case
    specifically; it was [the Vice Provost's and the Director of ORAD's] responsibility to oversee the oversight
    committees; discipline reflected their performance in this regard." Tab 18, 18 October 1996 affidavit of the
    University Vice President, p. 2.




                                    I
                                                 Page 30
                                 ,i
  The subject justified his actions on the basis of expedience:' he did what he had to do, so he
  could obtain sufficient results to obtain tenure. It is unacceptable to place one's career
  ambitions ahead of the safety of others. Such motivations cannot justify conducting
  biohazardous research in the absence of proper oversight.

  Actions that have the real potential of jeopardizing the physical safely of others are
  undoubtedly among the most serious. Despite promises to the contrary, the subject
  proceeded with biohazardous 'kesearch despite what he knew to be inadequate oversight. His       ,.

  belief that his interest in conducting the research outweighed these safety concerns and that
  he could provide oversight of his own research is of equal concern.

  While we believe the subject's actions are not consistent with accepted practices in the
  scientific community, we also believe that the University's lack of administrative structure
  and support for biohazardous research cannot be ignored when considering the severity of his
  actions. This case would simply not have arisen at a university that carefully managed its
  safety issues and provided +e necessary oversight. In such circumstances the subject's
 actions and failures to fulfill his express commitments would be a serious deviation from
 accepted practices. Here, there was no accepted practice, and while the evidence supports the
 conclusion that the subject continued his biohazardous research despite his knowledge that
 there was no administrative oversight, he was not completely remiss. He did take some
 actions to ensure the safe conduct of the research in the extant environment. We therefore
 concluded that the subject's and University's actions do not rise to the level of misconduct in
 science.

OIG9sRecommended ~ i s ~ d s i t i o n

As a final disposition of this case, although we do not recommend a misconduct finding, we
recommend that NSF take ,the following remedial actions to ensure that biohazardous
research is conducted at the University in a way that protects public safety, educates the
University community about its responsibilities, and builds public confidence that that
biohazardous research at the University is administered effectively:

1. Send the University a,:letter describing its expectations for the safe conduct of
   biohazardous research and the need for effective oversight of potentially dangerous
   research by competent university administrators.

2. Require the University to ensure that its review and oversight procedures are consistent
   with those of other institutions. To accomplish this, the University should consult with
   and seek the advice of other institutions' committees or administrations that have
   successfU1 safety processes and review and approval procedures. The University should
   submit a report on its efforts to NSF, and provide a copy to NSF's Office of Inspector

                                      Page 3 1
        General. The report should include descriptions of its processes for ensuring and
        providing oversight and review. It should describe the qualifications of the
        administrators and committee members appointed to manage these processes. NSF
        should determine whether the report adequately addressed the problems described in this
        report and whether the University's plan and personnel can adequately protect public
        safety.

       Until the report is appr&ed by NSF, NSF should require the University to submit
       documentation with any proposal submitted to NSF that describes whether the project
       was required to be reviewed by a safety committee, and, if required, shows that the
       project has been approved by that committee. Copies of the documentation and approvals
       (and the rationale for the approvals) are to be submitted to NSF with copies to NSF's
       Office of Inspector General. IS'

       Alternatively, if the University determines that the magnitude of the required remedial
       effort is disproportionate to the funding the University receives for biohazardous
      research, the University may decide that it is not cost effective to comply with the
      requirements specified above to conform with federal expectations for safely conducting
      biohazardous research . If the University decides that it is unable oq unwilling to comply
      with these requirements, the University should immediately: (a) inform NSF of its
      decision; (b) cease conducting biohazardous research; and (c) no longer apply for further
      federal funding in this area.

 3. ' Require the University to reimburse NSF for $5,000 in REU funds that were not spent as
      intended.

We also concluded that the subject violated the commitments he made in order to obtain
biohazardous materials. We recommend that NSF take the following actions with regard to
the subject to ensure that his' biohazardous research is conducted in a manner that protects
public safety and ensures University oversight:

1. Send the subject a letter describing NSF's expectations for the safe conduct of
   biohazardous research and the need for coordinating potentially dangerous research with
   university administrators. NSF should explain that, had the subject committed the same
   acts at a university with responsible oversight, it would consider his actions to be
   misconduct in science.

     We noted that the University received h d i n g from several federal agencies including, the National Institutes of
   Health, the Department of Agriculture, and NSF,for potentially biohazardous research.
Is' The University requested that this documentation contain particular wording and it be limited to a paragraph that
   does not indicate it is prompted by this report (Tab32, p. 7.) We believe that this paragraph should contain
   suficient information for a program oEcer to assess whether the review sufficiently considered the relevant
   issues and the Committee anived at a reasonable judgment given the facilities, capabilities of the investigator, and
   the planned oversight program.


                                                 Page 32
        2. Require that, in connection with any NSF-supported activity, the subject submit copies of
           any representations or promises he has made in order to obtain biohazardous materials.
           He should accompany those documents with a written description of his plan for
           complying with .them. These materials should be sent to the NSF program supporting the
           subject's research, with copies provided to NSF's Office of Inspector General.Is2

       3. Require as part of the conditions of any NSF-supported activity, that the subject describe,
          in every progress report, the steps he has taken, and will continue to take, to ensure that
          proper notification of his research and its hazard potential idposted, and that his reshrch
          has received the proper oversight. This requirement should be in effect for 3 years from -
          the final disposition of this case.

                      T       h      e      p       a      n      s      e       e to the Draft Report

       In April 1999, we received the University's response to our draft report (Tab 32). We have
      modified the final report to address the University's cominents. These modifications are
      found in footnotes 13, 15, 16, 22, 33,44, 60, 65, 80, 98, 129, 144, 151, and 152. We have
      modified the text of the report to emphasize our focus on describing systemic breakdowns at
      the University and its need to provide NSF with documentation to show not just that forms,
      manuals, and procedures have changed but that these have promptkd the necessary cultural
      changes in the administration and faculty to ensure that such problems will not arise in the
      future.

  Our modifications have not changed the substance of the report. We are concerned that the
  University's response shows a remarkable lack of progress in the 5 years that have passed
  since this case began. It ikinforced our view that NSF must take action to ensure that
  biohazardous research conducted at this institution with NSF funds is routinely reviewed
  carefully and monitored.

  In March 1999, we received the subject's first response to our draft report. (Tab 33.) We did
 not find his response to be supported by the evidence he provided or the case .materials. We
 therefore asked him to provide supporting documentation supporting his assertions that:

 1) University officials approved room 304D as a P2BSL2 facility;                           ,


2) appropriate University officials approved his HIS/SN, polio, and/or sewage sample
   research; and


Is*    In its response the University requested that the subject be required to provide the documentation described in
      points 2 and 3 to It. We believe that such communication should be part of a healthy institutional biohazard
      oversight and review process.. The University's request is reasonable, but it should be uniformly applied by the
      University to all researchers conducting similar research and not applied exclusively to the subject. Therefore, we
      have not modified our recommendations, but encourage the University to consider instituting processes it believes'
      will provide it with sufficient information to construct and maintain a credible review and oversight process.


                                                     Page 33
   3) his projects received. contemporaneous active oversight from qualified University
      officials. (Tab 34.) .

   We received his second response in May 1999. (Tab 35.) We have attached copies of the
   documents and included in Appendix 18 our evaluation of these ddcuments. The documents
   he supplied did not support his assertions, and many of them were dated and described events
   occurring after the February 1993 allegations surfaced. We concluded that the documents he
   provided did not demonstrate the existence of the continuing, active institutional oversight of
   his biohazardous research that was required by the certifications and promises he made.

  In support of his first assertion, the subject said the department chairman's assignment of
  laboratory space, resolution of space disputes, and management of the Multiuser Facility
  were indicative of the department chairman's approval of the use of the room for his
  biohazardous research. (Tab 34, p. 2.) However, none of these management activities by the
  department chairman can reasonably be construed as constituting the review, approval, and
  oversight that the subject h e 4 to be required.   .

 The subject also said his first assertion was supported by the University's review that
 preceding its authorization of his purchases from the AIDS Research and Reference Reagent
 Program, and that the review :demonstrated an awareness of the biohazard issues associated
 with the subject's HIVISIV research. (Tab 35, p. 3.) In fact, they reflect only an awareness
 of the hazards associated with the transformed but non-infected cell lines. The University
 did not review his subsequent purchases of HIV and SN, or their use in the Multiuser
 facility.

 Finally, in support of his first assertion, he said the biosafety committee reviewed his
 HIV/SIV research and the facility. (Tab 35, p. 3.) However, none of the documents
 provided by the subject show any review or approval of his intended use of the Multiuser
 Facility.

  In support of his second assertion, the subject said the department chairperson knew of his
. research and allowed him and others to use the Multiuser facility for BSL2 research.
  (Tab 35, p. 3.) Again, he did not provide any documentation to show that University officials
  responsible for providing the' review, approval, and oversight of his HISISIV, polio, and/or
  sewage sample research had done so. The department chairman's authority does not extend
 to superseding or substituting for that review, approval, and oversight.

In support of his third assertion, he said the department chairman, the Multiuser Facility
Directors, the Biology Stockroom manager and his technician, the SLO, the Director of
ORAD, the EH&S Director, and the Director of Risk Management were involved in the
oversight of his research. (Tab 35, p. 4) This is not credible. The Multiuser Facility
Director who removed the biohazard sign said he did not know why it was on the door, the


                                       Page 3 4
 stockroom employees are not qualified to provide oversight, and the Directors of ORAD,
EH&S and Risk Management, uniformly dispute his assertion. Notably absent from this list
are the members of the biosafety committee whose involvement he guaranteed by his
certifications and promises. We note that he included the SLO as a member of the Biosafety
Committee. The SLO denied providing such oversight and had asked to be removed fiom
the chairmanship position because he believed he was unqualified. Again, the subject was
unable to provide any document or testimony that demonstrated that his projects received
contemporaneous active oversight by qualified University officials.

The ,subject noted in his response the roles of Director of ORAD in reviewing of his          -
proposals and parkcipating in biosafety committee meetings and the EH&S Director in
assuring compliance with OSHA regulation. The materials provided by the subject and his
remarks only reinforce our view that this University has systemic problems associated with
oversight and that NSF needs to take action to ensure that research it finds is responsibly
administered and that its PIS fulfill their promises and commitments.




                              .    Page 35
                          I
